   Office of Inspector General
        Audit Report


 FAA OVERSIGHT IS INADEQUATE TO ENSURE
PROPER USE OF LOS ANGELES INTERNATIONAL
AIRPORT REVENUE FOR POLICE SERVICES AND
      MAXIMIZATION OF RESOURCES
         Federal Aviation Administration

           Report Number: AV-2014-035
            Date Issued: April 8, 2014
           U.S. Department of
                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Oversight Is Inadequate To                                      Date:    April 8, 2014
           Ensure Proper Use of Los Angeles International
           Airport Revenue for Police Services and
           Maximization of Resources
           Federal Aviation Administration
           Report No. AV-2014-035

  From:    Jeffrey B. Guzzetti                                                      Reply to
                                                                                    Attn. of:   JA-10
           Assistant Inspector General
             for Aviation Audits

    To:    Federal Aviation Administrator

           As the third busiest airport in the Nation, 1 Los Angeles International Airport
           (LAX) generated approximately $822 million in airport revenues 2 and received
           nearly $45 million in Airport Improvement Program (AIP) grant funding from the
           Federal Aviation Administration (FAA) in fiscal year 2012. LAX is owned and
           operated by the City of Los Angeles (the City) through Los Angeles World
           Airports (LAWA), a financially independent department of the City. As required
           by Federal law, recipients of Federal grant funds must ensure they use airport
           revenues for airport capital and operating costs and establish a fee and rental
           structure to make the airport as self-sustaining as possible. FAA, in turn, is
           responsible for effective oversight of airport revenue at airports that receive AIP
           grants.

           Between June 2011 and February 2012, our office received letters from three
           Congressmen from California expressing concerns about potential revenue
           diversion at LAWA, including LAX, involving money spent for police and
           security services. In addition, the Chairman of the House Appropriations
           Subcommittee on Transportation, Housing, and Urban Development inquired
           about our work on revenue diversions at LAX during a March 2012 congressional
           hearing. 3 Accordingly, we initiated this audit to assess FAA’s oversight of LAX

           1
             LAX had the third highest number of passenger boardings in calendar year 2012, according to FAA data.
           2
             LAX earned approximately $822 million in operating revenues for its fiscal year ending June 30, 2012.
           3
             Top Management Challenges Facing the Department of Transportation (OIG Testimony No. CC-2012-017), Mar. 29,
           2012. OIG reports and testimonies are available on our Web site at www.oig.dot.gov.
                                                                                                                 2


revenue use. Specifically, we evaluated whether (1) FAA’s oversight of LAWA
ensures proper use of LAX revenues, (2) LAX is as self-sustaining as possible,
and (3) LAX reported accurate financial data to FAA.

We conducted our audit in accordance with generally accepted Government
auditing standards from July 2012 to January 2014. Exhibit A details our scope
and methodology, and exhibit B lists organizations visited or contacted.

RESULTS IN BRIEF
FAA’s oversight did not ensure that LAWA properly used over $8 million in LAX
revenues and funding from 2006 to 2012. Federal law requires that airport revenue
be used for the capital and operating costs of the airport, and FAA’s Airport
Revenue Use Policy 4 states that such costs may include reimbursements to a State
or local agency for services received and supported by adequate documentation. 5
However, we identified about $7.87 million in unsupported charges without
adequate documentation for services provided by the Los Angeles Police
Department (LAPD) 6 and over $360,000 in unsupported administrative charges to
AIP grants. 7 Without adequate documentation or support, it is unclear if these
charges were used for the capital and operating costs of the airport or allowable
AIP project costs. However, under FAA policy, these costs should not have been
charged to the airport or to AIP project funding. In addition, LAWA spent
approximately $192,000 of airport revenue on unauthorized 8 LAPD personnel
working at LAX, including overtime incurred by LAPD officers. FAA did not
identify these instances of unsupported and unauthorized use of revenue at LAX,
which indicates that its oversight of LAX revenues can be improved. In 2012,
LAWA and FAA stated a record-keeping system to track LAPD non-airport work
time would be implemented to address allegations of unlawful revenue diversion
brought forward in congressional complaints received since mid-2011. 9 However,
because the City has yet to fully implement such a record-keeping system, LAWA
may be incorrectly spending additional revenue on LAPD non-airport work.



4
  The FAA “Policy and Procedures Concerning the Use of Airport Revenue” (Federal Register, Vol. 64, No. 30, Feb.
16, 1999) implements the statutory requirements that pertain to the use of airport revenue. The Policy describes
prohibited and permitted uses of airport revenue and outlines FAA’s enforcement policies and procedures.
5
  Under the FAA policy, adequate documentation consists of underlying accounting records and corroborating evidence
(i.e., invoices, vouchers, and cost allocation plans) to support payments of airport revenues to other government
entities.
6
  These charges occurred over 5 City fiscal years, beginning July 1, 2007, and ending June 30, 2012.
7
  During our review, LAWA stated it would discontinue these administrative charges to AIP grants.
8
  The term “unauthorized” describes instances where LAWA paid for LAPD personnel, including overtime, in a
manner inconsistent with procedure set forth in the Memorandum of Agreement between LAPD and LAWA or the
LAPD Fiscal Operations Division.
9
  In November 2011, FAA requested LAWA to review the allegations made in the congressional complaint. LAWA
responded to FAA in February 2012. In turn, FAA responded to the allegations in June 2012.
                                                                                                                        3


LAWA could not demonstrate that it met Federal requirements to be as self-
sustaining as possible in establishing rental rates for several of its non-
aeronautical 10 land leases. FAA policy requires airport sponsors to ensure airports
are as self-sufficient as possible, in part, by charging fair market value for non-
aeronautical property leases. Although we did not have concerns with the majority
of the 12 non-aeronautical leases reviewed, 11 3 leases were below fair market
value estimates from professional appraisals, rates established by the City’s Board
of Airport Commissioners, or LAWA’s own internal review. For example, for one
property, based on a 2010 internal LAWA review, we estimate that LAWA could
have obtained up to approximately $558,000 in additional annual rental income. 12

Finally, we detected financial reporting discrepancies of about $49 million
between the amounts LAWA reported in (1) its statutorily required annual
financial reports to FAA and (2) LAWA’s own internal financial reports. For
example, LAWA’s 2009 report to FAA showed no expenditures for legal services
at LAX. However, LAWA’s internal financial data included about $4.6 million for
such services in 2009. According to LAWA, the discrepancies occurred, in part,
because LAWA had issues with data integrity in 2009. According to FAA, LAWA
re-submitted its financial reports to FAA in February 2014 and, by the end of
March 2014, expects LAWA to provide supporting documentation for the re-
submitted reports. Because FAA uses these financial reports as a source of
information to detect whether airport revenue has been diverted from an airport,
inaccurate information could reduce the effectiveness of FAA’s oversight efforts
and provide erroneous information to the public.

We are making recommendations to improve FAA’s oversight of airport revenue
and the airport’s self-sustainability.




10
   FAA defines “aeronautical use” as all activities that involve or are directly related to the operation of aircraft,
including activities that make the operation of aircraft possible and safe. Aeronautical use includes services located on
the airport that are directly and substantially related to the movement of passengers, baggage, mail, and cargo.
Conversely, non-aeronautical use is activity which does not include aeronautical use. Non-aeronautical revenue
includes revenue from such activities as concessions, parking, advertising, and land rent.
11
   A description of the leases we selected for review is contained in Exhibit A, Scope and Methodology.
12
   Based on these estimates, LAWA could have obtained between approximately $80,000 and $558,000 in additional
annual rental income, depending on how the property is valued (e.g., as separate parcels or as vacant).
                                                                                                                4


BACKGROUND
LAX is the busiest of three airports owned and operated by the City of Los
Angeles through LAWA, a financially independent department of the City. 13 As
airport sponsor, the City must comply with U.S. law and FAA policy, including
the Airport and Airway Improvement Act of 1982 and FAA’s Airport Revenue
Use Policy. Specifically, the airport sponsor must use airport revenue for the
airport’s capital or operating costs. Also, when airport owners or sponsors accept
funds from FAA-administered airport financial assistance programs, they must
agree to certain obligations called grant assurances. These obligations require the
recipients to maintain and operate their facilities safely and efficiently and in
accordance with specified conditions. The assurances may be attached to the
application or the grant for Federal assistance and become part of the final grant
offer. In addition, the airport sponsor must also receive fair market value for
property leased or used for non-aeronautical purposes.

Revenue diversion is the use of airport revenue for purposes other than the capital
or operating costs of the airport, the local airport system, or other local facilities
that are owned or operated by the owner or operator of the airport and directly
related to the actual transportation of passengers or property. These restrictions on
airport revenue use are part of the grant assurances that airport sponsors must
make in order to receive Airport Improvement Program grant funds. 14 The FAA
Authorization Act of 1994 15 required the Secretary to establish policies and
procedures that prohibit the diversion of airport revenues through, among other
things, direct payments or indirect payments, other than payments reflecting the
value of services and facilities provided to the airport. In 1999, FAA published the
Policy and Procedures Concerning Use of Airport Revenues (Airport Revenue Use
Policy), as required by the FAA Authorization Act of 1994. The Airport Revenue
Use Policy requires that reimbursements for capital and operating costs of the
airport made by a government entity be supported by adequate documentary
evidence. Such costs may include reimbursements to a State or local agency for
the costs of services actually received and documented.

FAA is responsible for advising airport sponsors and providing oversight to ensure
that they are not in violation of Federal obligations regarding airport revenue, self-
sustainability, and other matters. According to FAA’s Airport Revenue Use
Policy, the Agency will use all means at its disposal to monitor and enforce the
revenue-use requirements and will take appropriate action when a potential
violation is brought to its attention by any means. To detect whether airport
revenue has been diverted, FAA uses (1) annual airport financial reports submitted
13
   LAWA also operates Ontario International Airport and Van Nuys Airport.
14
   Airport and Airway Improvement Act of 1982, Public Law 97-248, Title V, Section 511(a)(12) (September 3, 1982),
(codified at 49 U.S.C § 47107(b)(1)).
15
   Public Law 103-305, Section 112 (August 23, 1994) (codified at 49 U.S.C. § 47107(l)(2)).
                                                                                                                         5


by the sponsor, (2) findings from a single audit conducted in accordance with
OMB Circular A-133, (3) investigations following a third-party complaint, and
(4) DOT Office of Inspector General audits. FAA states that it will seek penalties
for the diversion of airport funds if the airport sponsor is not willing to correct a
diversion and make restitution, with interest, in a timely manner.

Over the past 2 decades, LAX has undergone reviews by the City, FAA, and our
office for airport revenue use. For example:

•    In 1995, 16 we reported that FAA was unaware that the sponsor’s airports,
     including LAX, 17 did not maintain fee and rental structures to make airports as
     self-sustaining as possible, and that airport revenues were not properly
     accounted for and used.
• In 1997, we reported that several revenue diversions identified in our 1995
  audit were still unresolved. 18 We also identified three areas where prohibited
  airport revenue diversion to the City occurred.

In 2012, LAWA 19 identified that the City incorrectly charged LAWA
approximately $1.7 million, including statutory interest, for off-airport responses
by the City’s Bomb K-9 20 unit. LAWA also identified approximately $1.9 million,
including statutory interest, in billing errors uncovered during the investigative
process. LAWA’s discovery of these improper charges was prompted by the
allegations received by our investigative office that we subsequently referred to
FAA. Our investigative office will be issuing a separate report on the allegations.




16
   Monitoring of Accountability and Use of Airport Revenues by City of Los Angeles Department of Airports (OIG
Report No. R9-FA-6-001), Oct. 30, 1995.
17
   At the time of the audit, there were four airports sponsored by the City of Los Angeles, Department of Airports:
LAX, Ontario International, Van Nuys, and Palmdale. The audit’s scope included all four airports.
18
   Management Advisory Memorandum on City of Los Angeles Department of Airports Revenue Retention (OIG Report
No. R9-FA-7-005), Mar. 7, 1997. Limited-scope audit conducted at the request of FTA.
19
   Letters from Anderson and Kreiger, LLP to FAA’s Airport Branch dated May 8, 2012, and May 31, 2012. These
letters were in response to a letter by FAA that was prompted by congressional inquiries of revenue diversion at LAX.
20
   This unit’s mission is to deter and detect the introduction of explosive devices both in transportation systems, such as
the airport, and the City.
                                                                                                                        6


FAA OVERSIGHT DID NOT ENSURE PROPER USE OF AIRPORT
REVENUE FOR POLICE SERVICES AND AIP ADMINISTRATIVE
COSTS
FAA’s oversight did not ensure that LAWA always used airport revenue properly.
Specifically, over a 5-year period, 21 the LAPD charged LAWA nearly $8 million
dollars for police services without adequate documentation to substantiate the
charges. The majority of this amount—$6.2 million—was for LAPD divisional
overhead rates that were based on outdated cost allocation plan calculations
instead of annually updated actual rates. The full extent of unsupported charges is
unknown because the City has not fully implemented a record-keeping system to
track off-airport time by LAPD officers assigned to the airport. LAWA also used
Federal funds to pay for administrative fees without proper justification that the
fees were for allowable AIP project costs. Finally, LAPD charged LAWA for
unauthorized LAPD personnel working at LAX and also for overtime incurred by
unauthorized LAPD officers.

LAPD Charged Unsupported Police Costs to the Airport Contrary to
FAA’s Airport Revenue Use Policy
Over 5 fiscal years, LAPD charged LAWA approximately $7.87 million for police
services without adequate documentation to substantiate the charges. Under
FAA’s Airport Revenue Use Policy, airport revenue can be used only for the
capital or operating costs of the airport. Such costs may include reimbursements to
a State or local agency, such as LAPD, for services received, provided they are
based on adequate documentation that demonstrates the funds were expended for
the benefit of the airport (e.g., accounting records accompanied by invoices,
vouchers, and cost allocation plans). FAA policy allows airports to recover illegal
charges for up to 6 years, with interest.

The $7.87 million includes unsupported charges without adequate documentation
(see table 1 below) from the following five areas over 5 fiscal years:

• Police Forgery Unit. LAPD charged LAWA $968,742 22 for services by its
  Forgery Unit. 23 This amount represents 20 percent of the unit’s personnel
  salary. However, LAPD did not provide adequate documentation, such as
  accounting records or tracking of airport-related and non-airport related time,
  to show that this charge was actually expended for airport-related work.

21
   This includes the following City of Los Angeles fiscal years: (1) 2007-2008, (2) 2008-2009, (3) 2009-2010, (4)
2010-2011, and (5) 2011-2012. The final costs for the 2012-2013 fiscal year were not available in time to be included
in this report.
22
   This amount comprises the unit’s gross salary and indirect costs and excludes the divisional overhead amount.
23
   The Forgery Unit investigates crimes involving fraud and fraudulent credit card usage as they apply to air travel,
including car rental agencies located at or near the airport.
                                                                                                                          7


• Police Fiscal Operations Division. LAPD charged LAWA $436,359 for a
  management assistant position in the Police Fiscal Operations Division. 24 This
  amount represents the assistant’s salary plus additional indirect charges. The
  assistant stated that she conducted both airport and non-airport work. Yet,
  LAPD did not provide documentation showing how much time the assistant
  spent on airport-related work. LAPD charged LAWA the assistant’s full salary,
  without any discount for the non-airport related work. FAA policy only allows
  reimbursement of the airport’s capital and operating costs.

•    Police Gang and Narcotics Division. LAPD charged $216,162 for the salary
     of a lieutenant in the Gang and Narcotics Division. 25 The lieutenant stated that
     he conducted both airport and non-airport work, and LAPD charged the airport
     one-third of the lieutenant’s salary to the airport. However, according to
     division representatives, the basis of this rate is unknown, and the time spent
     on airport-related work is not tracked. As a result, the documentation does not
     support that the lieutenant spent one-third of his time for the benefit of the
     airport.

•    Police Pacific Area Operations Support Division. LAPD charged LAWA
     $32,224 for the salary of a supervisory lieutenant in this division. 26 This
     amount is 5 percent of the supervisor’s salary. However, LAPD did not provide
     adequate documentation or rationale to demonstrate that the charge was
     expended for airport-related work. For example, the documentation lacked
     accounting records or other tracking of the supervisory lieutenant’s airport
     related and non-airport related time.

•    Divisional Overhead. LAWA paid about $6.2 million in unsupported charges
     without adequate documentation for all of LAPD’s divisional overhead rates
     for LAPD services to the airport. LAPD’s divisional overhead rates that were
     charged to LAWA were based on a cost allocation plan that was calculated
     over 15 years ago instead of determining the actual divisional overhead rates
     each year. According to correspondence between LAWA and FAA (dated
     February 2012), the divisional overhead rate apparently had never been subject
     to an independent audit, and LAWA stated it will ask the City to include the
     divisional overhead rate in future audits. However, we consider the entire
     amount of the divisional overhead rates charged over 5 fiscal years—the scope
     of our audit—to be unsupported costs because LAPD did not provide

24
   Among other responsibilities, this Department prepares and distributes the payroll, which includes liaising with the
other operational LAPD departments for the billing and reimbursements of police services at the airport.
25
   The Gang and Narcotics Division at LAX investigates illegal drugs and drug money that comes through the airport.
This effort supports the greater Division mission to disrupt violent street gangs and the means by which they support
their lifestyle, including the transportation of illicit drugs and sales of firearms in the greater Los Angeles area.
26
   This Division performs preliminary investigations of specific enumerated crimes, and follows up on felony and
misdemeanor investigations not cleared by arrest.
                                                                                                                       8


     documentation to support that it is the actual cost of divisional overhead to the
     airport. 27

Table 1. Unsupported Costs for Police Services to the Airport
Fiscal     Police           Police          Police               Police                Police             Total
Year       Forgery          Fiscal          Gang &             Pacific Area          Divisional        Unsupported
                                                     B
           Unit
                A         Operations        Narcotics          Operations            Overhead             Costs
                                 A                                         B
                            Div.                              Support Div.            Amount
2007-
           $195,663         $88,090           $41,933              $6,290           $1,163,475           $1,495,451
2008
2008-
           $207,689         $88,171           $43,507              $6,571           $1,243,731           $1,589,669
2009
2009-
           $223,457         $81,055           $43,507              $6,526           $1,260,457           $1,615,002
2010
2010-
           $203,220         $90,541           $43,507              $6,526           $1,252,800           $1,596,594
2011
2011-
           $138,713         $88,502           $43,708              $6,311           $1,292,539           $1,569,773
2012
      C
Total      $968,742         $436,359         $216,162             $32,224           $6,213,002           $7,866,489

Source: OIG calculation of data from the City of Los Angeles
Notes
Dollar figures rounded to the nearest whole number.
A: The figures in these columns do not contain the divisional overhead amount.
B: The amounts in these columns only contain the direct salary of the supervisory lieutenant. Indirect and
divisional overhead rates are not added to this amount.
C: The final costs for the 2012-2013 fiscal year were not available in time to be included in this report.

Although we identified approximately $7.87 million in unsupported police costs
without adequate documentation, the full extent of these costs is unknown
because, at the time of our visits to LAX in February 2013, LAPD had not fully
implemented a record-keeping system to track and account for time that its
officers assigned to the airport spent conducting off-airport duties. LAWA had
agreed to implement the tracking system for LAPD officers assigned to the airport
on a full time or full time equivalent basis starting July 2012 and stated it would




27
  In May 2012, LAWA identified that approximately $1.7 million, including statutory interest, for off-airport
responses by the City’s Bomb Squad K-9 unit was charged incorrectly to LAWA between fiscal year 2004-2005
through fiscal year 2009-2010. This amount was later credited back to the airport. As such, of the approximate $6.2
million of unsupported divisional overhead costs we identified, potentially about $66,377 (the divisional overheard
amount charged by the Bomb Squad K-9 unit multiplied by the average rate of time spent by the Bomb Squad K-9 unit
for off-airport assignments) of the $1.7 million was returned to the airport. However, since the divisional overhead rate
charged by LAPD was based on a cost allocation plan that was calculated over 15 years ago and because LAPD did not
provide documentation to support that the rate is the correct rate, we cannot be certain whether the approximate
$66,377 was the correct amount to be credited back to the airport.
                                                                                                                   9


require LAPD to credit LAWA for any use of LAWA-paid officers 28 for non-
airport purposes. The recordkeeping system is a key part of agreed-upon actions
between FAA and LAWA to resolve issues stemming from a congressional
complaint regarding allegations of unlawful revenue diversion at LAWA.

Our review of four LAPD units revealed that only two units—the Bomb Squad K-
9 (canine) unit and the non-K-9 Bomb Squad—were maintaining records of non-
airport work. While the Bomb Squad K-9 unit provided information on its non-
airport time to the Police Fiscal Operations Division to ensure LAWA was not
billed for this time, the non-K-9 Bomb Squad stated it does not provide
information on non-airport time to other entities, so it is unclear if LAWA is being
billed for the non-K-9 Bomb Squad’s non-airport time. However, a LAWA
official stated in August 2013 that reporting off-airport time by full time LAPD
personnel at LAX, other than the Bomb Squad K-9 unit, will not be necessary
because LAWA believes the other full time LAPD personnel rarely engage in non-
airport related activities. We requested documentation to support this statement as
well as the rationale for the change in the agreed upon actions for record keeping.
However, we have not received this documentation to date. By only requiring the
Bomb Squad K-9 unit to track off-airport time instead of any LAPD personnel
assigned to LAX on a full-time or full-time equivalent basis, LAWA could be
paying for police services not related to the airport, which would be a diversion of
airport revenue. 29

When we discussed these deficiencies with senior FAA officials in March 2013,
they were not aware of why only one of the LAPD units was tracking charges for
non-airport time. 30 While FAA stated it has limited staff, FAA’s Airport Revenue
Use Policy states congressional intent that FAA focus compliance efforts on the
lawful use of airport revenue. Despite FAA’s knowledge of revenue misuse
concerns at LAX, the Agency did not ensure that LAWA implemented effective
corrective actions (i.e., recordkeeping and tracking mechanisms for off-airport
time) to prevent future potential revenue diversions.




28
   This tracking requirement applies to the following police units: Field Services, Narcotics Division, Narcotics
Division-K-9, non-K-9 Bomb Squad, and Bomb Squad K-9 unit. We met with the Field Services Division, Gang and
Narcotics Task Force, Bomb Squad-K-9 (canine) unit, and the non-K-9 Bomb Squad unit. LAWA stated that services
rendered by a specialty LAPD division on an as-needed basis should only be billed to LAWA based on work performed
for the airport.
29
   As a result of this recordkeeping and tracking system, LAWA was able to identify that the City incorrectly charged
LAWA approximately $1.7 million, including statutory interest, for off-airport use of the City’s Bomb Squad K-9 unit.
This amount was credited back to LAWA.
30
   When we met with FAA in March 2013, only one unit, the Bomb Squad K-9 unit, was tracking non-airport time. In
December 2013, the non-K-9 Bomb Squad stated it started tracking time worked away from LAX in April 2013, after
we met with FAA in March 2013.
                                                                                                              10


LAWA Charged Unsupported Administrative Costs to AIP Grants
Since 2006, LAWA has charged over $360,000 to AIP funding for administrative
fees. However, LAWA did not provide us with a basis for how the fees were
determined or used. FAA’s AIP Handbook 31 states that administrative costs may
be allowed only if they are properly supported and substantiated. Without
providing a basis for the administrative fees, LAWA cannot charge them to AIP
funds.

We identified these administrative expenses by reviewing LAWA’s pay
reimbursement requests in the “Outlay Report and Request for Reimbursement for
Construction Programs” form that LAWA sent to FAA. Although FAA received
these reports from LAWA, the Agency did not identify that the administrative
costs were unsupported. The airport received about $356 million from fiscal years
2006 to 2012 in AIP funding. Although the administrative fees are only a small
portion of the total AIP funding received, their expense does not comply with
FAA’s policy that use of AIP funds must be properly supported. During our
review, LAWA officials stated they will no longer charge this fee.

LAX Airport Revenue Funded Unauthorized Costs
Over 5 fiscal years, LAPD charged approximately $192,000 for unauthorized
positions and overtime in its bill to LAWA. The June 2006 memorandum of
agreement (MOA) 32 between LAWA and LAPD states that reimbursements to
LAPD are based on the deployment and operations plan—a document describing
the staffing, equipment, goals, and objectives for the next fiscal year. In addition,
according to staff at the LAPD Fiscal Operations Division, overtime is only
charged to the airport for those LAPD personnel that are LAWA-funded. Yet, we
identified instances where LAPD charged LAWA for personnel not identified in
the deployment and operations plan. We also identified instances in which
overtime was charged for non-LAWA funded personnel. Specifically:

• Charges to LAWA for Unauthorized Positions. LAPD’s LAX Field Services
  Division provides uniformed patrol and participates in a joint crime task force
  with the Airport Police Division (APD) to conduct investigations. LAPD
  personnel working in this division are paid by LAWA or LAPD. For fiscal year
  2011-2012, LAWA authorized and funded 38 positions of different ranks,
  while LAPD funded 8 positions. However, during this time, LAPD billed
  LAWA for 39 positions instead of 38. As a result, LAWA funded an
  unauthorized LAPD position, resulting in a $42,665 overcharge to LAWA.
  According to the LAPD Fiscal Operations Division, the position should have

31
 The FAA AIP Handbook provides guidance and sets forth policies and procedures for the administration of the AIP.
32
 The purpose of the MOA is to ensure that effective and efficient public safety services are provided at LAX. The
MOA was updated in May 2013.
                                                                                                                  11


     been excluded from the charges. As a result, LAPD Fiscal Operations Division
     plans on preparing the information into a revised bill to LAWA.

• Overtime Charges to LAWA for Unauthorized Personnel. We found LAPD
  charged LAWA $149,233 of unauthorized overtime over 5 fiscal years. For
  example:

     o LAX Field Services Division. The LAX Field Services Division charged
       LAWA unauthorized overtime in the amount of $100,551—or 18 percent—
       of the total overtime incurred by this division over 5 fiscal years. However,
       approximately half of that amount—$53,014—was overtime charged by the
       same two officers. Although the two officers were assigned to the Division,
       LAPD—not LAWA—funded the positions. As LAPD-funded employees,
       their overtime should not have been charged to LAWA. When we discussed
       this with LAPD’s Fiscal Operations Division, the staff acknowledged that
       these officers’ overtime should not be charged. Further, they stated that
       these officers’ overtime will not be billed in the future.

     o Gang and Narcotics Division. The Gang and Narcotics Division charged
       $477,292 in overtime to LAWA over 5 fiscal years. However,
       approximately $48,680, or about 10 percent, of that amount was
       unauthorized. For example, in fiscal year 2008-2009 and fiscal year 2010-
       2011, the Gang and Narcotics Division included overtime for detectives
       who were not assigned to the Division at LAX. These overcharges
       respectively amounted to $11,461 and $8,557. 33

         In addition, overtime incurred either before or after an officer’s assignment
         period at LAX was also inappropriately charged to LAWA. This typically
         occurred for officers who were only assigned to LAX for a portion of the
         fiscal year. For example, in fiscal year 2007-2008, the Division included
         $24,967 34 of unauthorized overtime charges that were earned outside of the
         officers’ assignment period at LAX. Although one detective was assigned
         to LAX until December 8, 2007, $9,308 of overtime earned after that date
         was included in the charge to LAWA. In another example, one officer was
         assigned at LAX during the middle of the fiscal year 2007-2008. Yet, the
         officer incurred $13,041 of overtime both before and after the assignment
         period at LAX that was charged to LAWA. Similarly, in fiscal year 2011-
         2012, a detective charged overtime of $2,984 that was earned prior to the
         assignment at LAX.


33
   These overcharges comprised of 21.6 percent ($11,461 of $52,943) in fiscal year 2008-2009 and 7.8 percent ($8,557
of $109,176) in fiscal year 2010-2011 of the total overtime charged to LAWA in each respective fiscal year.
34
   $24,967 represents 18.8 percent ($24,967 of $132,868) of the Division’s total overtime charges in fiscal year 2007
through 2008.
                                                                                                                     12


     FAA’s oversight did not detect the $7.87 million in unsupported charges or the
     approximately $192,000 in unauthorized personnel and overtime charges, even
     though FAA was aware of other revenue use problems at the airport. For
     example, in June 2012, FAA provided a response to a DOT OIG Hotline
     complaint alleging improper revenue use and poor LAPD billing practices.
     FAA’s response identified two inappropriate charges, including statutory
     interest: approximately $1.7 million for the LAPD Bomb Squad K-9 unit’s off-
     airport responses and about $1.9 million 35 for billing errors uncovered during
     the investigative process. However, the issues we identified are not included in
     FAA’s response.

FAA DID NOT TAKE ADEQUATE STEPS TO ENSURE THAT LAWA
RECEIVED FAIR MARKET VALUE AND MAXIMIZED AIRPORT
REVENUES FOR SEVERAL LEASES
Contrary to FAA policy, 36 LAWA did not demonstrate that three of its non-
aeronautical land leases of airport property were set at fair market value, which is
a requirement for the airport to be as self-sustaining as possible. According to
FAA policy, fair market pricing can be determined either by reference to
negotiated fees charged for similar uses of the airport or an appraisal of
comparable properties.

We identified areas where LAWA did not demonstrate receipt of fair market value
for several rental properties. Specifically:

•    The rate LAWA charges for three non-aeronautical properties is lower
     than rates estimated by two professional appraisals, established by the
     Board of Airport Commissioners, or in LAWA’s internal review. In 2010,
     the City’s Board of Airport Commissioners set the land rental rates ranging
     from $2.40 per square foot per year (psfpy) to $5.50 psfpy, beginning
     retroactively in January 2009. 37 According to the Board, LAWA retained the




35
   LAWA uncovered these billing errors. After our investigative office provided the Hotline complaint to FAA, FAA
requested LAWA to investigate the allegations contained in the Hotline. LAWA found that approximately $1.9 million
of billing errors was a result of (1) inappropriate upward adjustment of salaries by a compensated time off rate,
(2) transposed numbers of wage data in the spreadsheet used to calculate LAPD charges to LAWA, and (3) applying
the wrong cost allocation plan (CAP) rate. This amount was credited back to LAWA.
36
   Each federally assisted airport owner/operator is required by statute and grant assurance to have an airport fee and
rental structure that will make the airport as self-sustaining as possible under the particular airport circumstances in
order to minimize the airport’s reliance on Federal funds and local tax revenues. The FAA has generally interpreted the
self-sustaining assurance to require airport sponsors to charge fair market commercial rates for non-aeronautical uses of
airport property.
37
   The Board set these rates for on-airport industrial and off-airport commercial land.
                                                                                                                     13


     services of independent appraisal firms to estimate the fair market value of the
     land. 38

     However, 3 of the 12 properties we reviewed were paying rent below amounts
     established by the Board, appraisal firms, or LAWA’s internal review. For
     example, LAWA charged about $33,711 for monthly rental payment for one
     property, according to the most recent invoice LAWA provided to us. 39
     However, if LAWA were receiving a rate for land lease in accordance with at
     least the $2.40 rate set forth by the Board, 40 LAWA could have received a
     rental payment of up to about $62,358 per month. 41 Furthermore, two appraisal
     firms estimated land rental rates ranging from $3.20 to $6.30 psfpy. 42 If
     LAWA were receiving rent in accordance with at least the lower appraised rate
     of the range, it would have received a rental payment of up to about $83,144
     per month. 43

     Also, one tenant has paid LAWA the same base yearly rent of about $383,117,
     for property containing a motel and a restaurant, since LAWA acquired the
     property in 2000. In 2010, LAWA conducted an in-house review of the
     property, in part to estimate “a fair market rental value.” The review
     established a fair market rental value ranging from $463,118 (if the property
     was valued as separate parcels) to $941,259 (if the property were vacant, the
     highest and best use). Based on these estimates, LAWA could have obtained
     between approximately $80,000 and $558,000 in additional rental income,
     depending on how the property is valued (e.g., as separate parcels or as
     vacant).

• LAWA lease files do not contain records of negotiations to reach fair
  market value. When asked whether documentation exists to show how fair
  market value was reached, staff did not recall documenting or preparing
  memoranda to support the determination.




38
   According to the Board, the appraisal firms estimated the fair market value of land including over 61.4 acres of land
used for non-airline industrial operations and 6.6 acres of land used for off-airport commercial purposes.
39
   This invoice is dated January 2013.
40
   The Board set the $2.40 rate in 2010. The rate was scheduled to increase to $2.45 in 2012, $2.50 in 2013, and $2.55
in 2014.
41
   This estimate is based on charging the $2.40 psfpy rate for paved and unpaved land on the property.
42
   The appraisal firms estimated rates for non-airport industrial land and off airport commercial land as of January 1,
2009.
43
   This estimate is based on charging the $3.20 psfpy rate for paved and unpaved land on the property.
                                                                                                                         14


LAWA staff had various explanations for charging less than the appraised fair
market value for non-aeronautical leases:

• Staff members used appraisals but relied on their professional judgment
  after considerable analysis to determine rental rates because staff
  considered professional appraisals and internal reviews to be limited.
  According to LAWA staff, professional appraisals and internal reviews do not
  consider special circumstances of airport property. These include use of
  comparables that do not have the same characteristics as property on airport
  land and leases with height restrictions when property is in the path of land
  aircraft, which can lead to discounted rental rates. However, the two appraisals
  we reviewed discuss height restrictions. One appraisal stated that “generally
  there are height restrictions and the only uses permitted are those that would
  not conflict with the airport, but most commercial and industrial uses would be
  allowed.” The other appraisal stated “in general industrial-related uses for
  which land parcels are intended, reflect low-density use and are not impacted
  by the transitional surface height restrictions.” In addition, FAA guidance
  specifically states appraisers will need to account for restrictions on the use of
  airport property when determining fair market value. 44

• Staff considered other factors that led to an adjustment of initial
  appraised rates. In April 2013, we emailed LAWA staff requesting further
  clarification on the basis for charging rates lower than those identified in
  independent appraisals. In August 2013, LAWA officials responded,
  reiterating their views on the limitations of independent appraisals 45 but also
  emphasizing other factors that could lead to an adjustment to the initial
  appraised rates. According to LAWA, these factors include (1) cost of a
  vacancy when LAWA and a current or prospective tenant fail to reach
  agreement and a property sits empty and (2) higher costs inherent in airport
  property because of security considerations and compliance with City
  ordinances, such as living wage, which must be built into LAWA leases.
  However, because LAWA did not document the justification for charging rates
  below appraised values, the degree to which these factors and data affected the
  rent charged is unclear. LAWA staff did acknowledge, however, that, in
  contrast to current practice, providing a memorandum for the file describing
  the specific factors involved when a lease rate deviates from an appraised rate
  would be beneficial for documenting those decisions.

44
   FAA Compliance Order 5190.6B states: “In view of the various restrictions on use of property on an airport (i.e.,
limits on the use of airport property, height restrictions, etc.) appraisers will need to account for such restrictions when
comparing on-airport with off-airport commercial non-aeronautical properties in making fair market value
determinations.”
45
   According to LAWA staff, other data points can be important in determining fair market value, such as (1) actual
rents paid for similar uses or properties, (2) comparison of rents for comparable properties at other area airports, and
(3) appraisals and market comparables provided by prospective tenants.
                                                                                                                       15


• Staff considered the status of several non-aeronautical properties adjacent
  to the airport to be in flux because of proposed changes to the LAX
  Master Plan. 46 These proposed changes include construction of an Intermodal
  Transportation Facility, a People Mover System, and a Consolidated Rent-a-
  Car facility. We recognize that the situation has been in flux for some time.
  However, LAWA has been leasing a non-aeronautical property adjacent to
  proposed changes in the Master Plan at rental rates substantially below rates
  established by the Board, which ranged from $2.40 to $5.50 psfpy. 47 This
  property consists of a sizeable piece of land—311,789 square feet—yet we
  estimate it returned only about $1.30 per square foot of land per year. 48 When
  questioned about the discrepancy, LAWA staff responded the lease requires a
  minimum rent or percentage of gross receipts, whichever is greater. However,
  based on the information we received, the rents charged were below the rent
  set by the Board.

Although LAWA staff provided these explanations, without either adherence to
appraised values or documentation to justify rates charged for non-aeronautical
properties below appraised values, it is impossible to determine whether LAWA
took reasonable 49 efforts to obtain a fair market rate for these properties and
therefore maximize airport revenue.

In response to our concerns about LAWA’s leasing rates, FAA officials stated that
they do not review leases and have limited tools to identify this type of problem.
However, airport sponsors that receive Federal grants are required to ensure their
airport is as self-sustainable as possible through their fee and rental structures, 50
and FAA is responsible for monitoring and ensuring airport sponsor compliance
with applicable Federal requirements. FAA’s Airport Compliance Manual states
that as part of the compliance program, 51 FAA district or regional officials may
46
   In December 2004, the Los Angeles City Council approved the LAX Master Plan and related entitlements for the
airport’s future development. According to LAWA, the Plan provided the first major new facilities for, and
improvements to, the airport since 1984 and planned to accommodate projected passenger and cargo growth through
2015. In January 2005, several cities challenged approval of the Master Plan. In 2006, the Court approved a Stipulated
Settlement, which required LAWA to conduct a Specific Plan Amendment Study (SPAS). In January 2013, LAWA
completed the SPAS. According to the City, the SPAS process includes the identification and evaluation or potential
alternative designs, technologies, and configurations for the LAX Master Plan Program that would provide solutions to
the problems that certain improvements with the Master Plan, referred to as “Yellow Light Projects” were designed to
address.
47
   In 2010, the Board established rates of $2.40 for on-airport industrial land. It also established rates of $4.50 and
$5.50 for off-airport commercial land depending on the type of off-airport commercial land.
48
   According to the most recent invoice LAWA provided to us dated January 14, 2013. This estimate is based on paved
and unpaved land on the property.
49
   Appendix E, FAA Order 5190.6B, Section VII B4 states airport proprietors are encouraged, when entering into new
or revised agreements, or otherwise establishing rates, charges, and fees, to undertake reasonable efforts to make their
particular airports as self-sustaining as possible in the circumstances existing at such airport.
50
   Specifically, grant assurance No. 24 states that a sponsor will maintain a fee and rental structure that will make the
airport as self-sustaining as possible under the circumstances existing at the particular airport, taking into account such
factors as the volume of traffic and economy of collection.
51
   The FAA Airport Compliance Program ensures airport sponsors' compliance with their Federal obligations
in the form of grant assurances, obligations, or other applicable Federal law.
                                                                                                                     16


review lease agreements between airport sponsors and aeronautical users. In our
opinion, FAA could similarly review non-aeronautical leases to ensure the lease
terms do not violate the sponsor’s Federal obligations to ensure that its airport is as
self-sustainable as possible.

LAWA DID NOT REPORT ACCURATE FINANCIAL DATA TO FAA
We detected financial reporting discrepancies of about $49 million between the
amounts LAWA reported in required annual financial reports to FAA and
LAWA’s own financial records. Federal law requires airports to annually report
financial information so that FAA can evaluate an airport sponsor’s compliance
with revenue use requirements. To meet this requirement, FAA requires airports to
report annual financial information showing the payments and revenues for
governmental entities. Airports are required to complete the Financial
Governmental Payment Report to document the amounts airports pay to
governmental units and all services and property provided to such units. The
report is due within 120 days of the end of the airports’ fiscal year. 52 However, we
found discrepancies between the Financial Governmental Payment Report and
LAWA’s internal financial reports. 53 For example:

• The airport’s report to FAA for 2011 was missing revenues from parking and
  sales tax of about $7.2 million that were included on LAWA’s financial
  statements.

• The airport’s report to FAA for 2009 contained approximately $41.6 million
  less than the sponsor’s financial data (see table 2). For example, the report
  showed no expenditures for legal services. However, LAWA’s financial data
  included about $4.6 million for such services.




52
   According to FAA, airport financial information is certified and validated by the Principal Financial Officer at the
airport.
53
   To fill out the Financial Governmental Payment Report (FAA Form 5100-126), LAWA runs an internal report that
shows government customers, vendors, and their revenues and expenditures, which comes from LAWA’s internal
accounting system.
                                                                                                       17


Table 2. Differences in LAX Expenditures Between LAWA’s
Financial Data and Data It Reported to FAA in Fiscal Year 2009
        FAA Reporting            Data in LAWA Financial           Data LAWA                 Difference
        Classification             Documents for LAX            Reported to FAA
Central Services                         $5,331,240                   $65,506              $(5,265,734)
Engineering                             $11,040,203                 $8,413,629             $(2,626,574)
Firefighting                            $20,267,636                   $23,225              $(20,244,411)
Law Enforcement                         $29,295,239                $16,990,094             $(12,305,145)
Legal Services                           $4,648,333                       -                $(4,648,333)
Parking and Sales Tax                    $7,122,955                 $7,122,955                   $0
Utilities                               $21,702,666                $25,721,026              $4,018,360
Mayor & City Council                      $511,499                        -                 $(511,499)
            TOTAL                       $99,919,771                $58,336,435             $(41,583,336)
Source: OIG comparison of Financial Governmental Payment Report (FAA Form 5100-126) and LAWA’s
financial data for LAX
Note: The table includes differences between LAWA’s data and the data that LAWA reported to FAA in
2009. In 2011, LAWA reported $7,162,978 of Parking and Sales Tax in its financial data for LAX, but did not
report this amount to FAA. For more information on the types of payments we reviewed, see Exhibit A to this
report. Dollar figures rounded to the nearest whole number.

According to LAWA, the discrepancies occurred, in part, because LAWA had
issues with data integrity in 2009. According to FAA, it is generally not FAA’s
role to review and reconcile airport financial information and the airport is
required to certify and validate their annual financial information. However,
because FAA uses these financial reports as a source of information to detect
whether airport revenue has been diverted from an airport, inaccurate information
could reduce the effectiveness of its oversight efforts and provide erroneous
information to the public. According to FAA, LAWA re-submitted its financial
reports to FAA in February 2014 and, by the end of March 2014, expects LAWA
to provide supporting documentation for the re-submitted reports.

CONCLUSION
With limited Federal funding available for airport improvement projects, strong
oversight of airport revenue use is critical. Because FAA did not ensure that
millions of dollars of LAX airport revenues were used for proper airport purposes
or that the airport was as self-sustaining as possible, LAX could continue to be
deprived of significant funds each year that could be used to reduce its reliance on
Federal funding. Given the airport’s past problems, FAA needs to strengthen its
oversight of LAX to ensure the airport is as self sustainable as possible and that
the airport sponsor does not misuse revenues from its operations.
                                                                              18


RECOMMENDATIONS
To improve FAA’s oversight of airport revenue, we recommend that FAA:

1. Determine the amount of AIP funds used for unsupported administrative fees
   that are recoverable and require LAWA to repay these costs to the Federal
   Government, if appropriate.
2. Require LAWA to justify and document the basis for determining fair market
   value for each non-aeronautical land lease, particularly in cases where
   appraised value and/or negotiation do not support lease rates.
3. For reporting years 2009 through 2011, require that LAWA reconcile its
   financial statement revenues and expenses with the Financial Governmental
   Payment Report (FAA Form 5100-126), document any discrepancies found,
   and resubmit the forms, along with supporting documentation, to FAA.
4. Determine the amount of diverted revenue, if any, from payments of
   unsupported or unauthorized police services that are recoverable by LAWA
   and require LAWA to recover these costs, plus interest, from the City of Los
   Angeles.
We also recommend that FAA ensure that the following actions take place:

5. The City of Los Angeles fully implements a recordkeeping system to track
   when Los Angeles Police Department officers assigned to the airport conduct
   non-airport work.
6. LAWA develops a process to verify that payments for police services are only
   for airport purposes and that any time spent on non-airport police assignments
   is credited back to the airport.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on January 29, 2014, and received its
formal response on March 19, 2014. FAA’s response is included in its entirety as
an appendix to this report. In its response, FAA concurred with five of our
recommendations and partially concurred with one recommendation. FAA
provided appropriate planned actions and timeframes for all recommendations.
Accordingly, we consider all six recommendations resolved but open pending
completion of planned actions.
                                                                             19


ACTIONS REQUIRED
FAA’s planned actions for all six recommendations are responsive, and we
consider the recommendations resolved but open pending completion of the
planned actions.

We appreciate the courtesies and cooperation of FAA, LAWA, LAX, and City of
Los Angeles representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-0500 or Scott Macey, Program
Director, at (415) 744-3090.

                                       #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                               20



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from July 2012 through January 2014 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our audit objective was to assess FAA’s oversight of LAX revenue use.
Specifically, we evaluated these three sub-objectives: (1) whether FAA’s oversight
of LAWA ensures proper use of LAX revenues, (2) whether LAX is as self-
sustaining as possible, and (3) discrepancies with financial data reported by
LAWA to FAA.

As part of our assessment of FAA oversight, we held entrance conferences with
FAA officials at Headquarters and the Airport District Office in Los Angeles and
also with officials at LAWA. We also met with the FAA Regional Planner, Safety
Standards Branch Manager, and the Compliance Program Manager in the Western
Pacific Region.

We reviewed prior relevant audit findings and recommendations from GAO, OIG,
independent CPA’s, and Single Audits reports performed from 2006 through 2010.
We also reviewed pertinent legislation, testimony, policy, and orders, such as the
Airport and Airway Improvement Act of 1982, as amended, Airway Safety and
Capacity Expansion Act of 1987, FAA Authorization Act of 1994, FAA
Reauthorization Act of 1996, Title 49 United States Code, Chapter 471, the FAA
Revenue Use Policy, the FAA Airport Compliance Manual Order 5190.6B, and
the FAA Airport Improvement Program Handbook Order 5100.38C.

For the first sub-objective, to determine FAA’s oversight of LAWA ensures
proper use of LAX revenue, we analyzed LAPD charges to LAWA. Specifically,
to determine how LAPD charges LAWA for police services at the airport, we met
with the LAPD Fiscal Operation Division and Budget Section. We also met with
LAPD units that work and/or are stationed at LAX, such as the LAPD non-K-9
Bomb Squad, the Gang and Narcotics Division, the Bomb K-9 unit at LAX, and
the LAX Field Services Division. We obtained LAPD’s billing records, including
underlying documentation detailing how the charges for all 12 LAPD units
providing services to LAX were formulated, for fiscal year 2011-2012. We
reviewed and analyzed these documents to assess how charges were formulated
and supported. Based on conclusions drawn from the analysis of fiscal year 2011-
2012 LAPD billings, we subsequently obtained and analyzed the billings of 5 of


Exhibit A. Scope and Methodology
                                                                                   21


the 12 units that provide service to LAX (i.e., the LAX Field Services Division,
Gang and Narcotics Division, West LA Forgery Unit, Pacific Operations Support
Division and Fiscal Operations Division) for fiscal years 2010-2011, 2009-2010,
2008-2009, and 2007-2008. We analyzed this set of documentation to determine
whether similar issues existed in those units as identified from the analysis
performed on the fiscal year 2011-2012 LAPD charges to LAWA.

We similarly interviewed personnel from the Los Angeles Fire Department
(LAFD) Revenue Section to learn how data are captured to ensure the airport is
billed only for airport-related work. We toured fire stations near and on the airport
and interviewed personnel at the fire stations. We obtained background
information on how costs are calculated for providing services to LAX by LAFD,
the computer systems used to track operations, and how the individual fire stations
distinguish between airport-related and off-airport work for billing.

In addition, we met with the CPAs who performed the 2006 through 2011 Single
Audits of LAWA. We met with the Office of the City Administrative personnel
regarding the development and billing of City costs to LAX and discussed with the
City’s Cost Allocation Plan Supervisor how the City’s police department charges
LAX a divisional overhead rate. At LAWA, we met with the Account operations
team for accounts payable and receivable. To determine what audits the City
auditors were performing, we discussed current and past audit work with the
Office of the Comptroller auditors and contract auditor.

For the second sub-objective, we met with LAWA’s Commercial Development
staff to determine the process followed to establish fair market rental rates for non-
aeronautical leases. We obtained a list of 73 non-airline, non-terminal leases from
LAWA. From this list, we reviewed 12 leases which we determined were non-
aeronautical. We excluded leases which we ascertained could be potentially
considered aeronautical.

For the third sub-objective, we analyzed the 2009 to 2011 FAA Form 126 and 127
airport financial reports to look for agreement to LAWA’s financial records. We
reviewed the types of payments on the FAA Form 5100-126 (under the “Payments
to Governmental Entity” section) for which LAWA provided information to us on
how the payments were calculated in its internal financial reports. We excluded
the types of payments for which LAWA did not provide information on how they
were calculated in its internal financial reports.




Exhibit A. Scope and Methodology
                                                                          22



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Federal Aviation Administration (FAA)
   • Headquarters
      (1) Office of the Associate Administrator for Airports
      (2) Office of Airport Compliance and Management Analysis
      (3) Office of Airport Safety & Standards
      (4) Office of Airport Planning & Programming, including Airports
          Financial Assistance
   • Western-Pacific Region - Airports Division
      (1) Planning
      (2) Safety Standards, including Compliance Program
   • Los Angeles ADO

City of Los Angeles, CA
   • Office of the Comptroller
   • Office of the City Administrative Officer
   • Office of the Controller/Financial Analysis and Reporting Division
   • LAPD Fiscal Operation Division and Budget Section
   • LAPD Hazardous Devices and Materials Section
       (1) LAPD Bomb Squad
       (2) LAPD Bomb Squad K-9 Unit
   • LAPD – Gang and Narcotics Division
   • LAPD – LAX Field Services Division
   • Los Angeles Fire Department Revenue Section
   • LAFD Stations 5, 80, and 51

Los Angeles World Airports (LAWA)
   • LAWA Planning staff
   • LAWA Accounts Receivable and Payable staff
   • LAWA Commercial Development Group
   • Director of Capital Development and Budget, Finance and Budget Division




Exhibit B. Organizations Visited or Contacted
APPENDIX. AGENCY COMMENTS                                                                23



                    Federal Aviation
                    Administration
Memorandum
Date:          March 19, 2014

To:            Jeffrey B. Guzzetti, Assistant Inspector General for Aviation

From:          H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1

Subject:       Federal Aviation Administration’s (FAA) Response to Office of
               Inspector General (OIG) Draft Report: FAA’s Oversight of Los Angeles
               International Airport’s Use of Airport Revenues


The FAA’s Airport Improvement Program (AIP) provides grants to public agencies for
the planning and development of public-use airports. When airport owners and operators
accept Federal grants, they agree to ensure that airport revenues are used exclusively for
airport capital and operating costs and each must establish a fee and rate structure to make
the airport as self-sustaining as possible. The FAA is responsible for advising airport
sponsors and providing oversight to ensure that they are not in violation of Federal
obligations regarding airport revenue, self-sustainability, and other matters. In July 2012,
the FAA issued its response to a hotline complaint which alleged airports revenues at Los
Angeles International Airport (LAX) were being misappropriated for services unrelated to
the airport. After a review, the FAA found two billing errors by the Los Angeles Police
Department (LAPD). The finding identified the need for a police officer tracking system
that tracks when LAPD officers assigned to the airport conduct non-airport work.

Following the issuance of FAA’s response to the hotline complaint, the OIG initiated the
subject audit on FAA’s oversight at LAX. The FAA provides the following formal
response to this audit, respective rationale, actions to be taken, and the time frame for
completion of any agreed upon corrective actions.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Determine the amount of Airport Improvement Program (AIP)
funds used for unsupported administrative fees that are recoverable and require Los
Angeles World Airports (LAWA) to repay these costs to the Federal Government, if
appropriate.




Appendix. Agency Comments
                                                                                       24


FAA Response: Concur. The FAA’s Los Angeles Airports District Office will work
with LAWA to determine the amount of unsupported administrative fees charged by
LAWA on AIP projects at LAX from 2006 through 2012. To aid the FAA in this review,
the FAA requests that the OIG provide the agency with its list of AIP grants for which
unsupported administrative costs were found totaling $360,000. When the amount of
unsupported administrative costs is verified, the FAA will determine which of those funds
are recoverable and require LAWA to repay them. The FAA plans to implement this
recommendation by December 31, 2014.

Recommendation 2: Require LAWA to justify and document the basis for determining
fair market value for each non-aeronautical land lease, particularly in cases where
appraised value and/or negotiation do not support lease rates.

FAA Response: Partially Concur. The FAA agrees with elements of this
recommendation, but we do not agree in its entirety. Federal Register Volume 64, No. 30,
Policy and Procedures Concerning the Use of Airport Revenue (Revenue Use Policy)
Section VI, B.8 requires that nonaeronautical leases should not be less than fair
rental/market value except to the extent permitted for community use purposes (Revenue
Use Policy, Section VII.D). However, in the administration of airport agreements, the
FAA does not dictate the processes to be used by airports and their sponsors. The airports
and their sponsors should clearly provide support and documentation of such agreements.

The FAA will request that LAWA develop a systematic process to document the records
of negotiations and any deviations from fair market value determination of all future
leases by September 30, 2014.

Recommendation 3: For reporting years 2009 through 2011, require that LAWA
reconcile its financial statement revenues and expenses with the Financial Governmental
Payment Report (FAA Form 5100-126), document any discrepancies found,
and resubmit the forms, along with supporting documentation, to FAA.

FAA Response: Concur. LAWA electronically re-submitted Form 126 for years 2009-
2011 to the FAA on February 12, 2014. However, the FAA is awaiting the documentation
to support the re-submission and expects to receive this by March 31, 2014. The FAA
will report back to OIG by June 30, 2014, if any discrepancies are noted.

Recommendation 4: Determine the amount of diverted revenue, if any, from payments
of unsupported or unauthorized police services that are recoverable by LAWA and
require LAWA to recover these costs, plus interest, from the City of Los Angeles.

FAA Response: Concur. As stated in FAA’s response to the hotline complaint,
payments for police services are allowable provided the payment is proportionate to the
services rendered. In addition, airports can only pay for actual costs that are documented
and substantiated. The FAA will request the City of Los Angeles to provide
documentation to support the positions the OIG identified as unsupported. As stated in




Appendix. Agency Comments
                                                                                        25


FAA’s response to recommendation three above, the FAA is awaiting LAWA’s
reconciliation report, and once this is received, the FAA will be able to determine the
amount of diverted revenue, if any. If LAWA cannot provide justification that shows the
unsupported or unauthorized police services charged to the airport, then the entire amount
should be refunded to LAX, plus applicable interest. The FAA will request that LAWA
provide justification for these positions to the FAA no later than September 30, 2014.

For the divisional overhead rate, the FAA will ask LAWA to provide documentation to
show how the rate was determined and what it was based upon. In addition, the FAA
will request LAWA to provide a full accounting of the divisional overhead rate and
bring it up to date, if necessary, for the FAA to gain assurance that the rate conforms to
FAA’s Policy and Procedures Concerning the Use of Airport Revenue. The FAA will
request that LAWA provide an updated divisional overhead rate by September 30, 2014.
In addition, any amounts in excess of the value of services received during the last six
years should be refunded to LAX.

Recommendation 5: Ensure that the City of Los Angeles fully implements a
recordkeeping system to track when Los Angeles Police Department officers assigned to
the airport conduct non-airport work.

FAA Response: Concur. In response to the hotline complaint in July 2012 and prior to
the initiation of this audit, the FAA had identified the need for an upgraded record-
keeping system that tracks when LAPD officers are assigned to airport security and when
they are assigned off-airport work. The City concurred with our finding and agreed to
implement an upgraded tracking system. The FAA expects LAWA to implement a
tracking system that ensures that LAX only pays for airport security-related police
services by September 30, 2014.

Recommendation 6: Ensure that LAWA develops a process to verify that payments for
police services are only for airport purposes and that any time spent on non-airport
police assignments is credited back to the airport.

FAA Response: Concur. As stated in response to recommendation 5, the FAA expects
LAWA to implement a tracking system that ensures the airport only pays for airport
security-related police services by September 30, 2014. As part of the tracking system,
the FAA expects personnel assigned to LAX on a full-time or full-time equivalent basis
(the number of total hours worked divided by the maximum number of compensable hours
in a full-time schedule) will track the time spent off –airport and the total time deployed.
Periodically, the LAPD will report the cost of off airport time for each position. The
aggregate of all off-airport costs will then be deducted from LAWA’s payments of the
City’s bi-monthly bills, if any.




Appendix. Agency Comments
